February 4, 2009

MITZI R. BETMAN
VICE PRESIDENT, CORPORATE COMMUNICATIONS

SUBJECT: Final Audit Report – Area Mail Processing Communications
         (Report Number EN-AR-09-001)

This report presents the results of our audit of Area Mail Processing (AMP)1
Communications (Project Number 08XG025EN000). Our objectives were to analyze
AMP communications issues noted during prior audits and assess management’s
proposed changes to the AMP Communications Plan. Our audit focused on
communication with stakeholders and the impact of stakeholder interest on the AMP
process and consolidation efforts. This self-initiated audit addresses strategic and
operational risks. See Appendix A for additional information about this audit.

Conclusion

The Postal Service enhanced the AMP communications process regarding potential
consolidations and closures. In addition, management’s actions generally addressed
prior audit findings and recommendations associated with stakeholder communications.
However, our review of the AMP Communications Plan indicates that enhanced
employee notification and input opportunities remain. Employee notification of the
public meeting and an increase in avenues for stakeholder input using traditional and
web-based methods could mitigate some stakeholder resistance and decrease possible
delays or cancellation of AMP consolidations and associated cost savings.

Improved AMP Communications Process

Postal Service actions generally addressed prior audit findings and recommendations
regarding AMP stakeholder communications. Management actions include a series of
revisions of AMP communications guidelines made between April 1995 and March 2008
that increased message consistency, enhanced the public input process (PIP), and
expanded the use of web pages to disseminate information. As a result, officials
improved AMP transparency by providing frequent, consistent messaging to stakeholder
groups. See Appendix B for our detailed analysis of this topic.



1
 The consolidation of all originating and/or destinating distribution operations from one or more postal facilities into
other automated processing facilities for the purpose of improving operational efficiency and/or service.
Area Mail Processing Communications                                            EN-AR-09-001



Opportunities Remain to Enhance Area Mail Processing Communications

Employees, unions, and other stakeholders have resisted AMP consolidation efforts in
the past. Our review of the AMP Communications Plan indicates enhanced employee
notification and input opportunities exist. For example, after an initial service talk
notifying employees of an AMP feasibility study, the AMP Communications Plan does
not provide opportunity for employee input until the public meeting, although other
mechanisms are often used at local discretion. Limited communication can result in
employee anxiety about the unknown and resistance to the AMPs; delays or
cancellation of network streamlining initiatives; and missed opportunities for savings.
See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Corporate Communications:

1. Increase communication with employees during the Area Mail Processing (AMP)
   process by including a mechanism in the AMP Communications Plan to notify
   employees of the public meeting and include “employee-only” input opportunities
   following initial notification of the AMP feasibility study and preceding the public
   meeting.

Web-Based Stakeholder Communications

The Postal Service’s web-based AMP communications are limited to web pages for
information dissemination and do not provide opportunity for stakeholder input.
According to management, maintaining and updating even simple web pages can be
costly and time-consuming, as would the incorporation of other web-based initiatives to
facilitate stakeholder input. Forestalling the use of more advanced web-based
communication options might result in missed opportunities for stakeholder input and
continued resistance to AMPs. See Appendix B for our detailed analysis of this topic.

We recommend the Vice President, Corporate Communications:

2. Broaden the use of web-based methods for disseminating Area Mail Processing
   details to stakeholders — especially employees — and provide additional avenues
   for input.

Management’s Comments

Management generally agreed with recommendation 1, to increase communication with
employees during the AMP process, and took action during our audit in response to the
recommendation. Management updated the AMP Communications Plan to notify
employees of the mechanism for submitting input at the initiation of the AMP feasibility
study. In addition, management added an employee service talk and Newsbreak to the
public meeting notifications to enhance communication with employees at the public
meeting. Management stated they did not agree that employees’ first opportunity for




                                             2
Area Mail Processing Communications                                           EN-AR-09-001



input would be at the public meeting and explained that employees have the same
opportunities as the general public to submit comments to the district office.
Management also stated that the audit provided no empirical data to support its
assumption regarding employee anxiety levels at the time an AMP study is announced.
They stated that the audit incorrectly concluded, based on opinions expressed at public
meetings, that the same level of concern exists before and after AMP study results are
released.

Management did not agree with recommendation 2, to broaden web-based
communication alternatives, including employee input mechanisms. Management
expressed reservations regarding whether blogs and social media would provide useful
input and described actions currently under way to increase information on existing
AMP websites, including a summary of public comments received. See Appendix H for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
actions responsive to recommendation 1 and will close this significant recommendation.
Management’s updates to the AMP Communications Plan will increase employee
notifications of input opportunities for the AMP and may increase the perceived
transparency of the process to employees.

In the response to recommendation 1, management also expressed concerns about
statements and conclusions made in the audit finding on employee input opportunities
and employee anxiety levels.

   •   Employee input – our statement in the report addressed “employee-only” input
       opportunities. However, management’s comments address opportunities to
       provide input as a member of the general public. As stated in the report, we
       believe that increased “employee-only” input opportunities may help reduce
       employee resistance to the AMP process, without moving them into a public
       process.

   •   Anxiety level – our audit did not obtain empirical data such as psychological tests
       to determine employee anxiety levels during the AMP process. However,
       research indicates that common causes of stress and anxiety are physical and
       environmental changes related to job or work. Uncertainty also contributes to
       stress and anxiety. Based on the common causes of stress, available
       information about the AMP communication process, and our observations of
       employees at the public meetings, we believe additional communication
       opportunities for employees may help reduce their stress and anxiety levels, and
       thereby reduce their resistance to proposed AMPs.




                                            3
Area Mail Processing Communications                                            EN-AR-09-001



The OIG considers management’s comments on recommendation 2 nonresponsive.
Postal Service officials have increased the use of the Internet for disseminating AMP
information. The intent of the recommendation was to explore mechanisms for two-way
dialogue between stakeholders and the Postal Service by increasing channels of input
using web-based initiatives. Other agencies are currently using this technology, and as
multidirectional web-based social media evolve, this strategy may prove useful to the
Postal Service. We still consider the recommendation to be worthwhile, but since we
did not designate it as significant, we will not pursue it through the resolution process.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan, Jr.
    Stephen M. Kearney
    Anthony M. Pajunas
    Irene A. Lericos
    Robert W. Field, Jr.
    Katherine S. Banks




                                            4
Area Mail Processing Communications                                                                EN-AR-09-001



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A decline in First-Class Mail® volume,2 increased competition for traditional mail
products from the private sector, increased automation and mail processing by mailers,
and shifts in population demographics have resulted in excess capacity in the Postal
Service’s mail processing infrastructure. These factors, coupled with an aging
processing infrastructure and network redundancies, make operating efficiently difficult.
The Postal Service has recognized the need for a comprehensive redesign of its
distribution and transportation network.

In 2003, the President’s Commission on the Postal Service (the Commission) found the
Postal Service had more facilities than it needed and did not use many of them
efficiently. The Commission said these inefficient operations and an antiquated network
cost the Postal Service billions of dollars in unnecessary expenses. The Commission
also noted the Postal Service faced political resistance to closing or consolidating postal
facilities and restrictive statutory requirements.

The Postal Service’s Strategic Transformation Plan, 2006-2010 articulated an initiative
to improve its processing and transportation network.3 The charter of the initiative was
to create a flexible logistics network that reduces both Postal Service and customer
costs, increases operational effectiveness, and improves consistency of service.

On December 20, 2006, the Postal Accountability and Enhancement Act (Postal Act of
2006)4 was signed into law, encouraging the Postal Service to continue to streamline its
networks. In June 2008, the Postal Service submitted its Network Plan to Congress, as
required by the Act,5 for rationalizing its mail processing and transportation networks.

Among the strategies described in the Network Plan is an updated method for
communicating AMP initiatives to stakeholders. This process has been refined over
3 decades, as mail processing has evolved from a manual and mechanized process to
a largely automated process.

AMP initiatives can result in a high level of local, and even national, interest among
employees, customers, government officials, and the media. In response, the Postal
Service developed the AMP Communications Plan (September 2005) to enhance the
AMP stakeholder communications process, address community concerns, and provide
more effective outreach. The AMP Communications Plan complements

2
  In 2007, First-Class Mail® volume decreased 1.8 percent compared with 2006. The volume decline continued a
downward trend starting in 2002. Between 2002 and 2007, total First-Class Mail volume declined 6 percent, with a
decrease of 19 percent in single-piece mail.
3
  In recent years, the Postal Service has also referred to its network redesign by a series of names: Network
Integration and Alignment, Evolutionary Network Development, Network Rationalization, and Network Optimization.
4
  Public Law 109-435, dated December 2006.
5
  Section 302, Network Plan, dated June 2008.




                                                        5
Area Mail Processing Communications                                                                  EN-AR-09-001



Handbook PO-408, Area Mail Processing (AMP) Guidelines, and has been updated
several times. The Postal Service most recently revised and reissued both documents
in early 2008. See Appendix C for details on updates and revisions to the AMP
Communications Plan.

The Consolidated Appropriations Act for Fiscal Year 20086 reiterates findings from two
Government Accountability Office (GAO) products.7 In the act, Congress directs the
GAO to evaluate the revised AMP Communications Plan to determine whether the
Postal Service has implemented recommendations “to strengthen planning and
accountability in realignment efforts” and improve communications with stakeholders.
Congress also halted progress on six AMP initiatives, pending the GAO’s evaluation of
its earlier findings and congressional review of the report.8

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to analyze AMP communications issues noted during prior audits
and assess management’s proposed changes to the AMP Communications Plan. Our
audit focused on communication with stakeholders and the impact of stakeholder
interest on the AMP process and consolidation efforts. In order to execute this review,
we:

    •   Conducted interviews with management to gain an understanding of the AMP
        Communications Plan.

    •   Compared the updated plan with recommendations from past reviews.

    •   Reviewed other Postal Service mandates and guidance regarding
        communicating with stakeholders about AMP consolidations.

    •   Surveyed stakeholder input and its impact on past AMP initiatives and
        performed other analyses and analytical procedures as necessary.

    •   Reviewed public meeting minutes to assess input from stakeholders.

    •   Benchmarked against communication methods for other, similar Postal Service
        initiatives, as well as similar initiatives at other agencies/organizations.

We conducted this performance audit from April 2008 through February 2009 in
accordance with generally accepted government auditing standards and included such
6
  Public Law 110–161, dated December 2007.
7
  U.S. Postal Service: Mail Processing Realignment Efforts Under Way Need Better Integration and Explanation
(Report Number GAO-07-717, dated June 2007); U.S. Postal Service: Progress Made in Implementing Mail
Processing Realignment Efforts, but Better Integration and Performance Measures Still Needed (Report Number
GAO-07-1083T, dated July 2007).
8
  The halted consolidations underway were in Sioux City, IA; Detroit/Flint, MI; Bronx, NY; Aberdeen, SD; and Canton,
OH. The Postal Service subsequently cancelled the Sioux City, Aberdeen, and Bronx consolidations.




                                                         6
Area Mail Processing Communications                                         EN-AR-09-001



tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on November 19, 2008, and
included their comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG issued six reports between December 2005 and July 2008 addressing AMP
communication concerns and the GAO issued six products that included AMP
communication discussions or recommendations. See Appendix D for more details on
prior audits related to AMP communications.




                                           7
Area Mail Processing Communications                                           EN-AR-09-001



                           APPENDIX B: DETAILED ANALYSIS

Improved Area Mail Processing Communications Process

Postal Service actions generally addressed prior audit findings and recommendations
regarding communication with AMP stakeholders. Managers revised AMP
communications guidelines multiple times between April 1995 and March 2008 to
increase message consistency, enhance the PIP, and expand the use of web pages.
Specifically, management:

    •   Redesigned notification templates for message frequency, clarity, and
        consistency at four AMP actions or events, including: Notice of Intent to Conduct
        Feasibility Study, Public Meeting, AMP Proposal Decision, and Other Events,
        such as suspending or cancelling feasibility study.

    •   Added details to the communication timetable.

    •   Added AMP updates to the Postal Service’s website.

    •   Enhanced PIP guidelines and moved the public meeting to earlier in the AMP
        process.

The Postal Service’s actions enhanced the AMP communication process. For
example, comments at one public meeting revealed that some business mailers might
not have received sufficient notice of the meeting. To help ensure business mailers are
aware of public meetings, management plans to post a notification at each Business
Mail Entry Unit to inform customers. As a result of their actions and continued efforts,
Postal Service officials have improved AMP communications and increased the
transparency of the AMP process through frequent, clear, and consistent messaging to
stakeholder groups. See Appendix D for a summary of prior audit findings and
recommendations.

Opportunities Remain to Enhance Area Mail Processing Communications

Employees, unions, and other stakeholders have resisted AMP consolidation efforts.
Our review of the AMP Communications Plan indicates enhanced employee notification
and input opportunities remain. Employees are first notified in face-to-face “service
talks” at the initiation of an AMP feasibility study. Communication efforts between the
initiation of the study and the public meeting are at the discretion of local management
and have included Newsbreaks, postings to local bulletin boards, additional service
talks, and local newsletter articles. However, the AMP Communications Plan does not
include a mechanism to notify employees directly of public meetings or movement of the
AMP through the approval process, unlike other stakeholder groups. Employees, who
are perhaps the stakeholder group most directly affected by consolidations and/or




                                            8
Area Mail Processing Communications                                           EN-AR-09-001



closures, usually learn about these events from their union representatives, mailers, or
the media.

The original intent of AMP public meetings was to answer questions from the public and
mailers, but Postal Service officials have noted that public meetings are attended
predominantly by employees. Since the Communications Plan does not specify an
“employees-only” input meeting scheduled between initial employee notification and the
public meeting (a period of up to 3 months), the public meeting is the employees’ first
opportunity to provide input or express their concerns in an open forum. Although no
career Postal Service employee has involuntarily suffered a job loss due to an AMP,
limited communication can result in anxiety about the unknown and resistance to the
AMPs; delays or possibly even cancellation of network streamlining initiatives; and
ultimately, in missed opportunities for savings. See Appendix E for a summary of
stakeholder notifications during the AMP process.

Web-Based Stakeholder Communications

The Postal Service’s web-based AMP communications are limited to unidirectional web
pages, which are best suited for information dissemination and do not provide
opportunity for stakeholder input. Using more advanced web-based communication
options for AMP stakeholders could broaden stakeholder input avenues and help
reduce resistance to AMPs.

The most recent AMP Communications Plan provides guidelines for posting
consolidation information for each AMP event on the Postal Service’s Internet site. In
their continued effort to enhance communications, Postal Service personnel have stated
that postings to the AMP website include updated web pages (rather than
replacements) for each AMP event, which will increase transparency and provide a
sense of history of the process for stakeholders. According to management,
maintaining and updating even simple web pages can be costly and time-consuming, as
would incorporating blogs to facilitate stakeholder input.

The Postal Service has recognized the utility and importance of its web presence.
Vision 2013, the Postal Service’s Strategic Plan 2009-2013, states the organization will
use blogs and podcasts, social networking sites, and mobile devices to improve two-
way communications with stakeholders. Two Postal Service blogs are currently
available on the Internet for sharing information and receiving comments from interested
parties and more are under development. We determined that other government
agencies and non-governmental organizations currently use blogs, message boards,
wikis, and other web-based communication devices for open communication with
stakeholders. See Appendix F for more information on benchmarking web-based
communication methods and Appendix G for a glossary of terms.




                                            9
Area Mail Processing Communications                                                                              EN-AR-09-001



                                   APPENDIX C: IMPROVEMENTS TO AMP COMMUNICATIONS
                                       (“√” = enhancements included in AMP communications guidelines)
                                                                                             Post to
                               Initiation                   Public                  No
                                             Completion                Approval               Postal
                                of AMP                      Input                  Action                          Enhancements
                                            of AMP Study                of AMP               Service
                                 Study                     Process                 Taken
                                                                                             Internet
                                                                                                        • Single worksheetpage.
           AMP Guidelines
            (March 1995)                         √                         √                            • Developed standardized
                                                                                                        instructions.

                                                                                                        • Instructions and frequency for
                 AMP
                                                                                                        notifications increased.
            Communications
                 Plan              √             √                         √                            • Examples of notifications included.
           (September 2005)                                                                             • Communications checklist (matrix)
                                                                                                        added.
                                                                                                        • Extensive background.
                                                                                                        • Letter to the editor/opposite
                AMP
                                                                                                        editorial template provided.
           Communications
             Support Kit           √             √                         √          √                 • Approval announcement day time
Criteria




           (February 2006)                                                                              specific.
                                                                                                        • Templates added for "no action
                                                                                                        taken."
                                                                                                        • PIP added (after headquarters
                                                                                                        [HQ] functional review process).
           AMP Notifications
                                                                                                        • PIP mentioned in AMP study
               Tool Kit            √             √            √            √          √                 notification letters and stand-up talks.
             (May 2006)
                                                                                                        • Stand-up talks provided at both
                                                                                                        losing and gaining facilities.
                                                                                                        • Added AMP process flow diagram.
                                                                                                        • PIP moved to earlier in process
               AMP
                                                                                                        (simultaneous with area and HQ
           Communications
                Plan               √             √            √            √          √         √       review).
            (March 2008)                                                                                • Shortened timeline.
                                                                                                        • Web postings specific and match
                                                                                                        phases of AMP.




                                                                  10
   Area Mail Processing Communications                                                                                 EN-AR-09-001




          APPENDIX D: PRIOR AUDITS WITH AMP COMMUNICATIONS RELATED ISSUES/RECOMMENDATIONS
                                                                                       Communications
     Report Name               Communications Discussions/Findings                                                     Postal Service Actions
                                                                                      Recommendations

                                                                   OIG Audits
Area Mail Processing      Limited Use of AMP Process – Resistance to             Develop a process for            Established HQ multi-functional
Guidelines                consolidations affected the approval and               addressing resistance to mail    communication team and AMP
(NO-AR-06-001,            implementation of AMP proposals.                       processing consolidations and    Communications Plan.
12/21/2005)               Policy Could Be Improved – AMP Guidelines were         facility closures.
                          incomplete and some detailed procedures for
                          addressing AMP issues were not contained or            Update AMP Guidelines or         AMP Communications Plan
                          referenced in AMP policy. For example, the guidance    supporting policies to address   provided details for required
                          did not:                                               what should be communicated      communications to stakeholders,
                          • Discuss how to address resistance that may be        with stakeholders, by whom,      including timing and Postal Service
                          encountered when completing an AMP study or            when, and how.                   officials responsible.
                          implementing an AMP proposal. This resistance
                          includes unions, affected communities, and other
                          stakeholders.
                          • Adequately address what should be communicated
                          with stakeholders, by whom, when, or how.

Sioux City, IA            Compliance with AMP Guidelines – To add                Communicate updated              Summary brief on www.usps.com.
Processing and            credibility to the consolidation process, the Postal   information on the Sioux City
Distribution Facility     Service must provide support for AMP data and follow   AMP proposal with
Consolidation             the AMP process. Handbook PO-408 states that a         stakeholders.
(EN-AR-07-001,            vital aspect of implementing an AMP is timely, clear
11/9/2006)                communication with all parties.
Bronx, NY Processing      Potential Risks: Transitioning Employee                None.                            AMP communication guidelines
and Distribution Center   Integration – Although no formal recommendation                                         under revision during audit.
Consolidation             was made, issue was discussed with management                                           Management to consider
(EN-AR-07-003,            and the report notes management could mitigate                                          incorporating additional employee
7/18/2007)                some risks of the consolidation by providing an                                         communication guidelines.
                          effective communication mechanism for transitioning
                          employees that allows them to address questions and
                          concerns timely.




                                                                     11
   Area Mail Processing Communications                                                                                     EN-AR-09-001




                                                                                         Communications
    Report Name                Communications Discussions/Findings                                                         Postal Service Actions
                                                                                        Recommendations
                                                                   OIG Audits
Management Advisory -    Prior Audit Recommendations Addressed                                                        Written inquiries and comments
Automated Area Mail      documenting the specific AMP event in the                                                    from the employee organizations
Processing Worksheets    communications worksheets.                                                                   and employees addressed by local
(EN-MA-08-001,                                                                                                        management. Local Consumer
10/19/2007)              Additional Enhancements – Communications                 Document major concerns and         Affairs or Public Affairs and
                         1. Stakeholders – Concerns were expressed about          input provided by stakeholders,     Communications office handles
                         inadequate transparency and a perception that            along with the responses and        other inquiries and comments.
                         management does not consider public input when           actions taken to address            Summary of written comments and
                         making decisions to consolidate operations. A            concerns as part of the AMP         verbal comments from public input
                         summary of public comments is to be submitted to the     proposal.                           meeting submitted as part of AMP
                         Area Vice President; however, the draft AMP policy                                           proposal and become part of the
                         does not require their inclusion in the AMP proposal.                                        record. Summary posted at
                         Recognizing public input in the proposal would                                               www.usps.com.
                         enhance the guidelines by documenting stakeholder
                         concerns and improving transparency.

                         2. Employees – The new Chapter 4 on                      Include a reference to Article 12   Revised PO-408 indicates
                         communications did not discuss the importance of         of the appropriate collective       reassignments and/or excessing
                         addressing employee concerns regarding employment        bargaining agreements to help       will be accomplished in
                         retention and available opportunities. Postal Service    ensure that employees               accordance with applicable
                         employees’ efforts have a direct and visible impact on   understand the potential            provisions of Employee and Labor
                         the organization’s results. Managing organizational      impacts and available               Relations Manual and applicable
                         change is essential to continued success, and helping    protections.                        collective bargaining agreements.
                         employees adjust to changing roles requires open
                         communication at all levels.




                                                                      12
   Area Mail Processing Communications                                                                            EN-AR-09-001




                                                                                            Communications
     Report Name                Communications Discussions/Findings                                               Postal Service Actions
                                                                                           Recommendations
                                                                     OIG Audits
Kansas City, KS           Stakeholder Communications – Stakeholders                 None                     No action required.
Processing and            expressed concerns with the communication process
Distribution Center       for the Kansas City AMP. Concerns included which
Consolidation             stakeholders were notified, when stakeholders were
(EN-AR-08-001,            notified, and the information shared with stakeholders.
1/14/2008)
                          Risk Factors – Transitioning Employee Integration
                          – Employee attrition and the process for moving
                          employees to the Kansas City, MO, Processing and
                          Distribution Center may have resulted in the loss of
                          skilled plant employees. The transition could have
                          required increased time for employee training and
                          orientation, and an effective communication
                          mechanism to allow transitioning employees’
                          questions and concerns to be addressed in a timely
                          manner.

Detroit, MI Processing    Other Issues – Stakeholders expressed concerns            None                     No action required.
and Distribution Center   with the communication process for the Detroit AMP.
Consolidation             Concerns included which stakeholders were notified,
(EN-AR-08-005,            when stakeholders were notified, and the information
7/17/2008)                shared with stakeholders.




                                                                        13
   Area Mail Processing Communications                                                                                           EN-AR-09-001



                                                                                               Communications
     Report Name                 Communications Discussions/Findings                                                            Postal Service Actions
                                                                                              Recommendations

                                                                      GAO REPORTS
U.S. Postal Service:       Review of President's Commission report –                    Develop an integrated plan to      Agreed to take action.
Bold Action Needed to      cautioned that streamlining strategies would likely          optimize the Postal Service’s
Continue Progress on       lead to suspicion and lack of trust, and lack of input       infrastructure and workforce, in
Postal Transformation      from stakeholders could prevent the Postal Service           collaboration with its key
(GAO-04-108T,              from achieving the goal of a more efficient network.         stakeholders and make it
11/5/2003)                 Encouraged stakeholders’ engagement in the process           available to Congress and the
                           to address legitimate concerns and minimize                  public, with periodic progress
                           disruption to alleviate some of the resistance to facility   reports.
                           closures.
U.S. Postal Service: The   Discussed impact of resistance to AMPs and found             Develop a mechanism for            Postal Service stated it will make
Service’s Strategy for     the Postal Service "strategy excludes stakeholder            informing stakeholders as          decisions with stakeholder input
Realigning Its Mail        input and is not sufficiently transparent or                 decisions are made.                without specifying how it will
Processing                 accountable…"                                                                                   incorporate input into realignment
Infrastructure Lacks                                                                                                       decisions and agreed to the need
Clarity, Criteria, and                                                                                                     for transparency.
Accountability
(GAO-05-261, 4/8/2005)

U.S. Postal Service:       Reviewed draft of the AMP Communications Plan                Improve public notice (clarify     Negotiated timing of public input
Realignment Efforts        – Found the plan was still unclear, the public input         notification letters).             meeting to after feasibility study
Underway Need Better       meeting was held too late in the process and there           Improve public engagement          and simultaneous with Area Vice
Integration and            was a lack of transparency regarding how the Postal          (hold public meeting during        President approval period. Also,
Explanation                Service uses public input in reaching decisions.             data gathering phase and make      began posting slides and agenda
(GAO-07-717, 6/21/2007)                                                                 info available in advance).        for public input meetings on
                                                                                        Increase transparency (update      www.usps.com.
                                                                                        AMP Guidelines and explain
                                                                                        how public input is used in
                                                                                        decision-making process).




                                                                           14
   Area Mail Processing Communications                                                                       EN-AR-09-001




                                                                                       Communications
     Report Name               Communications Discussions/Findings                                           Postal Service Actions
                                                                                      Recommendations

                                                                 GAO REPORTS
Postal Reform Law:       Reviewed progress on Postal Act of 2006 –                None.                 No action required.
Early Transition Is      Addressed constraints affecting network optimization,
Promising, but           employee impact and communication, and monitoring
Challenges to            the workplace environment.
Successful
Implementation Remain
(GAO-08-503T,
2/28/2008)

USPS Has Taken Steps     Reviewed Postal Service Network Plan – Noted             None.                 No action required.
to Strengthen Network    improved public notice and engagement, increased
Realignment Planning     clarity of notification letters, and increased
and Improve              transparency into the process.
Communication
(GAO-08-1022T,
7/24/2008)


U.S. Postal Service:     Reviewed Postal Service Network Plan – Reported          None.                 No action required.
Progress Made Toward     the Postal Service took steps to address GAO
Implementing GAO’s       recommendations to improve communication with its
Recommendations to       stakeholders as it consolidates its AMP operations
Strengthen Network       and noted as AMP consolidations are implemented,
Realignment Planning     the Postal Service will have the opportunity to gather
and Accountability and   stakeholder feedback on the updated
Improve                  Communications Plan and assess the effectiveness of
Communication            modifications.
(GAO-08-1134R,
9/25/ 2008)




                                                                      15
Area Mail Processing Communications                                                                         EN-AR-09-001




                                  APPENDIX E: AREA MAIL PROCESSING COMMUNICATIONS
                                      STAKEHOLDER NOTIFICATION BY AMP EVENT

                                                              Notification of Public
                                                                  Meeting and              Decision by
                                                                                                                      Other
                                Initiation of Feasibility    AMP Proposal moved to      AVP/Headquarters
                                                                                                                (AMP suspended or
                                          Study             Area Vice President (AVP)   (AMP approved or
                                                                                                                    resumed)
                                                              and Headquarters for       no action taken)
                                                                     approval


Congress (national and local
offices)
                                           yes                          yes                   yes                          yes

Employees                                  yes                          no                    yes                          yes

Local/state officials                      yes                          yes                   yes                          yes

Mailers                                    yes                          yes                   yes                          yes

Media                                      yes                          yes                   yes                          yes

Public                                     yes                          yes                   yes                          yes

Unions                                     yes                          yes                   yes                          yes

Source: Postal Service Area Mail Processing Communications Plan (March 2008)




                                                                 16
Area Mail Processing Communications                                                                                                  EN-AR-09-001




                            APPENDIX F: BENCHMARKING WEB-BASED COMMUNICATION METHODS

       Question                Response       Benchmarked Organizations                      Function                                    Website

                                                                                   Disseminate information and
                                              Transportation Security Agency
                           Blogs                                                   stakeholder input (with          http://www.tsa.gov/blog/
                                              – Evolution of Security
                                                                                   comments “on”).
                                                                                   Disseminate information and
                           Live help/chat     State of Utah                                                         http://www.utah.gov/
                                                                                   stakeholder input.
                                              Environmental Protection
                                              Agency (EPA) – National                                               http://www.network-democracy.org/epa-
                           Message boards                                          Stakeholder input.
                                              Dialogue on Public Involvement                                        pip/welcome.shtml
What web-based                                in EPA Decisions
communication
                           Podcasts           Commonwealth of Virginia             Disseminate information.         http://www.virginia.gov/
mechanisms are
available?                 User surveys       Commonwealth of Virginia             Stakeholder input.               http://www.virginia.gov/

                           Web pages          UK Post Office®                      Disseminate information.         http://www.postoffice.co.uk/portal/po
                                                                                   Stakeholder input and
                           Webcasts           Postal Regulatory Commission                                          http://www.prc.gov
                                                                                   disseminate information.
                                              Office of the Director of National
                                                                                   Communication among
                           Wikis              Intelligence, National                                                http://www.dni.gov/nic/NIC_home.html
                                                                                   experts.
                                              Intelligence Council

                                                                                   National research and
                                              Center for Digital Government –      advisory institute on
                           Non-governmental
                                              Digital Government                   information technology           http://www.centerdigitalgov.com/
                           organizations
                                              Achievement Awards                   policies and best practices in
                                                                                   state and local government.
What benchmarking or
                                                                                   Journal focusing on
guidance is available to   Professional
                                              Journal of E-Government              application and practice of e-   http://www.egovjournal.com/index.htm
organizations expanding    publications
                                                                                   government.
their web-presence?
                                                                                   2002 Presidential E-
                                              Office of Management and             Government Strategy to
                           Government
                                              Budget, Electronic Government        integrate agency operations      http://www.whitehouse.gov/omb/egov/index.html
                           agencies
                                              Initiatives                          and information technology
                                                                                   investments.




                                                                          17
Area Mail Processing Communications                                                          EN-AR-09-001



                                    APPENDIX G: GLOSSARY
    Blog (a contraction of the term "Web log") – a Web site, usually maintained by an individual
    with regular entries of commentary, descriptions of events, or other material such as graphics
    or video. Entries are commonly displayed in reverse-chronological order. "Blog" can also be
    used as a verb, meaning to maintain or add content to a blog. Many blogs provide commentary
    or news on a particular subject. A typical blog combines text, images, and links to other blogs,
    Web pages, and other media related to its topic. The ability of readers to leave comments in
    an interactive format is an important part of many blogs.

    Live Help/Chat – applications designed specifically to provide online assistance to users of a
    web site. The software enables the administrator or call-center staff of a web site to receive
    and respond to text communication from multiple users of the site.

    Message Board – a web application for holding discussions and posting user-generated
    content. Internet forums are also commonly referred to as Web forums, newsgroups, message
    boards, discussion boards, (electronic) discussion groups, discussion forums, bulletin boards,
    fora (the Latin plural) or simply forums. The terms "forum" and "board" may refer to the entire
    community or to a specific sub-forum dealing with a distinct topic. Messages within these sub-
    forums are displayed either in chronological order or as threaded discussions. A sense of
    virtual community often develops around forums that have regular users. Message boards
    allow anonymous posts or posts only by registered users and typically have both an
    administrator and moderator to provide guidance and monitor posts.

    Podcast – series of audio or video digital-media files distributed over the Internet by syndicated
    download, through Web feeds, to portable media players and personal computers. Though the
    same content may also be made available by direct download or streaming, a podcast is
    distinguished from other digital-media formats by its ability to be syndicated, subscribed to, and
    downloaded automatically when new content is added.

    Web Page – a resource of information suitable for the World Wide Web and accessed through
    a web browser. Information is usually in HTML or XHTML format and may provide navigation
    to other web pages via hypertext links. Web pages may be retrieved from a local computer or
    from a remote web server. The web server may restrict access only to a private network, e.g.,
    a corporate intranet, or it may publish pages on the World Wide Web. Web pages are
    requested and served from web servers using Hypertext Transfer Protocol (HTTP).

    Webcast – media file distributed over the Internet, either live or recorded.




                                                    18
Area Mail Processing Communications                       EN-AR-09-001



                      APPENDIX H: MANAGEMENT’S COMMENTS




                                      19
Area Mail Processing Communications        EN-AR-09-001




                                      20
